Executive Report



Return to the USDOJ/OIG Home Page



Office of Community Oriented Policing ServicesGrant to the Casa Grande Police DepartmentArizona
GR-90-00-013March 2000Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of grants awarded by the Office of Community Oriented Policing Services to the Casa Grande Police Department (CGPD), Arizona.  The purpose of the grants is to enhance community policing.  The CGPD was awarded a total of $525,000 to hire 7 police officers. 

We reviewed the CGPD's compliance with seven essential grant conditions.  We found the grantee's budgeting practices, hiring, meeting the local match, preparing reimbursement requests, retention, implementation of community policing and periodic status reporting to be acceptable.  However, we noted two minor exceptions in the status reporting requirement.  Six Financial Status Reports for the FAST/UHP grant and the 1996 Officer Progress Report were not submitted timely.

These items are discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope and methodology appear in Appendix I.